            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     SUPPLEMENTAL SECURITY INCOME
  RECIPIENTS ELIGIBLE AS DISABLED ADULT
 CHILDREN UNDER THE OLD-AGE, SURVIVORS
   AND DISABILITY INSURANCE PROGRAM



   April 2007          A-13-07-17073




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 30, 2007                                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Eligible as Disabled Adult Children Under the
           Old-Age, Survivors and Disability Insurance Program (A-13-07-17073)


           OBJECTIVE

           Our objective was to determine whether Supplemental Security Income (SSI) recipients
           who previously received Old-Age, Survivors and Disability Insurance (OASDI) benefits
           as child beneficiaries were eligible for additional OASDI benefits.

           BACKGROUND

           The SSI program provides cash assistance to individuals who have limited income and
                                                                      1, 2
           resources and who are age 65 or older, blind or disabled.       The OASDI program
           provides benefits to qualified retired and disabled workers and their dependents, as well
           as survivors of insured workers. 3 According to Social Security Administration (SSA)
           policy, an application for SSI payments is considered an application for OASDI
                     4
           benefits.

           Individuals receiving SSI payments may also be eligible for benefits as disabled adult
           children (DAC) under the OASDI program if they
           •      were disabled before reaching age 22;
           •      cannot be entitled to a higher OASDI benefit payment based on their own work
                  history; and


           1
            To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
           an eligible noncitizen; and (3) meet certain income and resource limits.
           2
            Section 1601, et seq. of the Social Security Act, as amended (42 United States Code (U.S.C). § 1381, et
           seq.). See also 20 Code of Federal Regulations (C.F.R.) 416.110.
           3
               Social Security Act § 201 et seq., 42 U.S.C. § 402 et seq.
           4
               Program Operations Manual System (POMS) section SI 00601.010D.
Page 2 - The Commissioner


•      have a parent who is receiving OASDI benefits or who was OASDI-insured at the
       time of death. 5

We examined information from electronic data extracts from the Agency’s
Supplemental Security (SSR) and Master Beneficiary Records (MBR). As of
August 10, 2006, our examination had identified 278,794 SSI recipients who had
(1) attained age 18 on or after August 22, 1996; 6 (2) established their dates of disability
before age 22;
(3) received OASDI benefits as children; and (4) received SSI payments. For these
recipients, we applied additional screening requirements and found 5,908 individuals
who appeared to be eligible for additional OASDI benefits. These individuals were
receiving only SSI payments as of August 2006. See Appendix B for a detailed
discussion of our Scope and Methodology.

Of the 5,908 SSI recipients, we selected a random sample of 200 for review. We
independently reviewed information, recorded as of September 2006, in these
recipients’ respective SSRs and MBRs.

RESULTS OF REVIEW

Our analysis of information in SSA’s SSR and MBR found there were SSI recipients
who received OASDI benefits as child beneficiaries who appeared to be eligible for
additional OASDI benefits. Of the 200 SSI recipients we reviewed, 137 appeared to be
DAC cases and eligible for additional OASDI benefits. As such, we estimate about
4,047 of the 5,908 SSI recipients we identified may be eligible for additional OASDI
benefits. Of the 137 DAC cases, we selected 10 SSI recipients to assess their
respective OASDI and SSI payments. We determined these 10 recipients were due
OASDI underpayments of approximately $114,000.

SSI Recipients Appeared To Be Eligible for OASDI Benefits
As Disabled Adult Children

Of the 200 SSI recipients we reviewed, 137 (68.5 percent) appeared to be eligible for
additional benefits as DAC under the OASDI program. We excluded those SSI
recipients who appeared to be eligible for OASDI benefits, but the SSI recipients’
parents received the maximum disability payment allowable under the OASDI program.
We asked SSA staff why the Agency had not determined whether these 137 individuals
were eligible for additional OASDI benefits as DAC. SSA staff advised us this occurred
because individuals did not always understand DAC eligibility requirements, and the
reporting forms were unclear.

5
    20 C.F.R. § 404.350.
6
  The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Public Law 104-193,
sec. 211, effective August 22, 1996, requires that SSA “redetermine” the eligibility of individuals who were
eligible for SSI based on disability in the month before the month in which they attained age 18 using the
rules for determining initial eligibility for adults.
Page 3 - The Commissioner


Further, SSA staff indicated the Agency has on-going efforts for identifying individuals
that may be eligible as DAC. Staff reported system enhancements were made to help
operational staff identify DAC eligibility. SSA’s Modernized Claims System now collects
information pertaining to a child’s potential entitlement. In addition, the Agency is
modifying its Form SSA-1372, Advance Notice of Termination of Child’s Benefits.

Of the 137 SSI recipients identified, we assessed the OASDI and SSI payments for
10 cases and discussed our results with SSA staff. Office of Public Service and
Operations Support staff confirmed all 10 individuals were eligible as DAC for additional
OASDI benefits. Based on the results of our analysis, we estimate about 4,047 of the
5,908 SSI recipients we identified appeared to be eligible for OASDI benefits as DAC.

On November 29, 2006, we met with Agency representatives to discuss our review and
plans for further work. We were informed SSA had started a similar effort and was
reviewing a sample of SSI recipients. During the discussion, we provided Agency staff
a list of the 200 SSI recipients we reviewed and agreed to share information about the
5,908 SSI recipients identified in our audit population. As of December 8, 2006, the
Agency’s SSR and MBR indicated 7 (5.1 percent) of the 137 recipients we identified
were receiving OASDI benefits as DAC.

We reviewed information Agency staff provided us regarding SSA’s selection of
recipients who may be eligible for OASDI benefits. The Agency’s selection
methodology did not include all the screening requirements we used. SSA reported
16,536 SSI recipients were identified for further review. Of the 5,908 individuals who
met our screening requirements, Agency staff stated SSA had also identified about
30 percent. Later, staff reported SSA identified 1,500 (25.4 percent) of the SSI
recipients we identified. Our independent review of the information provided by SSA
found 1,500 of the recipients we identified were also identified by the Agency.

We believe SSA may be able to maximize its limited resources by using our analysis of
SSI recipients to more efficiently pinpoint those cases most likely to reflect eligibility as
DAC. Based on our testing results, we have identified a group of SSI recipients who
may be eligible for OASDI benefits. Such action may facilitate benefit payments being
made to eligible individuals earlier than if SSA completes its study without targeting this
group of SSI recipients.
Page 4 - The Commissioner


OASDI Benefit Underpayments May Be Due SSI Recipients

We computed OASDI underpayments due for the 10 SSI recipients SSA confirmed
were eligible for OASDI benefits as DAC. These SSI recipients were selected because,
if eligible as DAC under the OASDI program, they would receive a significant net
increase in monthly payments. These recipients were receiving an average monthly
SSI payment of $589. We determined the average monthly OASDI benefit payment
these individuals were eligible to receive was $899. Based on the 10 recipients’
eligibility for September 2006, we determined the average net increase in monthly
payments was about $310 (52.6-percent increase).

To determine whether OASDI underpayments were due the 10 SSI recipients, we
computed the OASDI payments individuals were eligible to receive and SSI payments
SSA made to these recipients. See Table 1 for the results of our computations.

                    Table 1: SSI Recipients Due for OASDI Payments 7

                                    OASDI                                      OASDI
                   SSI                                SSI Payments
                                   Payments                                Underpayments
                 Recipient                                Made
                                     Due                                     To Be Paid
                     A                  $41,709               $19,802              $21,896
                     B                  $58,771               $33,369              $25,363
                     C8                 $39,783               $29,994               $9,751
                     D                  $17,280               $10,104               $7,170
                     E                  $19,202                $8,626              $10,565
                     F                  $57,536               $35,133              $22,370
                     G                  $10,277                $5,927               $4,345
                     H                  $16,840               $10,363               $6,473
                      I                  $8,786                $4,122               $4,662
                      J                  $8,834                $7,164               $1,660
                    Total             $279,017*              $164,604             $114,255
                *Minor difference due to rounding.

Our calculations covered the period of OASDI eligibility from the date of disability onset,
as indicated on the SSR, to September 2006. An earlier date of disability onset may
have been established if eligibility had been determined under the OASDI program. An
earlier onset date would have resulted in recipients being eligible to receive OASDI
benefits sooner than the dates used in our calculations. Therefore, our calculations
reflect the minimum amount of underpayments that may be due these recipients.



7
  Values in the table are based on our independent application of Agency polices and numeric calculations
for the period of eligibility to September 2006.
8
  As of October 16, 2006, this individual was awarded OASDI benefits as a DAC. The values we
independently computed were not the same amounts the agency determined was applicable for the
claimant. The Agency’s estimate considered a prior overpayment and an additional monthly payment.
Page 5 - The Commissioner


We determined SSI recipients were eligible for approximately $279,000 in OASDI
benefits. These recipients had received approximately $165,000 in SSI payments
                                                                  9
during this period. After applying the applicable windfall offset, the total OASDI
underpayments due recipients was at least $114,000.

We discussed our computations with staff from the Philadelphia Regional Center for
Security and Integrity. They confirmed the 10 SSI recipients we reviewed had OASDI
underpayments, and the underpayments were subject to offset. However, the results of
computations completed by SSA staff were not the same as our computations. Agency
staff provided different numeric values for the OASDI underpayments, SSI payments
made, and OASDI underpayments due these 10 individuals. SSA considered existing
overpayments when performing its calculations.

CONCLUSION AND RECOMMENDATION
Since SSI recipients represent some of the most vulnerable individuals SSA serves, we
believe SSA should identify and pay recipients eligible for OASDI underpayments. We
recommend SSA:

1. Determine whether the 5,908 SSI recipients are eligible for OASDI benefits as DAC
   and calculate the OASDI underpayments due the recipients, as appropriate.

2. Evaluate on-going efforts to identify individuals that may be eligible as DAC and
   determine whether these efforts should be expedited or expanded.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency also provided some technical
comments that were incorporated into our final report. The text of SSA’s comments is
included in Appendix D.




                                                         Patrick P. O’Carroll, Jr.




9
  POMS, section SI 02006.001, indicates a windfall offset is the reduction of retroactive OASDI benefits by
the amount of SSI payments that would not have been due had SSA paid the OASDI income timely.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Early Alert Memorandum
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DAC      Disabled Adult Children
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:
•   Reviewed applicable Federal law and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to the Supplemental Security Income (SSI) and Old-Age, Survivors
    and Disability Insurance (OASDI) programs.
•   Identified and reviewed prior relevant audits.
•   Interviewed Agency staff from the Office of Public Service and Operations Support,
    Division of Program Policy and Operations, Retirement and Survivor
    Insurance/Supplemental Security Income Analysis Branch; Philadelphia Regional
    Center for Security and Integrity; and Office of Quality Performance.
•   Examined information in the Supplemental Security (SSR) and Master Beneficiary
    Records (MBR) for selected SSI recipients.
•   Analyzed information for 10 SSI recipients to determine eligibility for OASDI
    benefits as “disabled adult children,” (DAC) and the applicable OASDI
    underpayments and SSI “windfall offsets.” 1

We obtained an electronic data extract identifying SSI recipients who were receiving
SSI payments as of August 10, 2006, who had (1) attained age 18 on or after
August 22, 1996; 2 (2) established their dates of disability before age 22; and
(3) received OASDI benefits as children. As of August 10, 2006, we identified
278,794 SSI recipients as meeting these criteria. To these 278,794 recipients, we
applied the following additional screening requirements:
•   a date of disability established after attainment of age 18 but before age 22;
•   OASDI benefits were not being paid to the recipient;
•   an SSR with a date of disability onset after August 22, 1996,
•   an MBR identifying the recipient as terminated because of age attainment or student
    status (LAF T4 or T6);
•   an SSR that indicated OASDI benefits were not being paid;

1
  Program Operations Manual System, section SI 02006.001, indicates a windfall offset is the reduction of
retroactive OASDI benefits by the amount of SSI payments that would not have been due had SSA paid
the OASDI income timely.
2
  The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Public Law 104-193,
sec. 211, effective August 22, 1996, requires that SSA “redetermine” the eligibility of individuals who were
eligible for SSI based on disability in the month before the month in which they attained age 18 using the
rules for determining initial eligibility for adults.


                                                    B-1
•     an MBR that had the same beneficiary account number for multiple children; and
•     a parent currently receiving OASDI or who was deceased.

After applying the additional screening requirements, we identified 5,908 SSI recipients
who appeared to be eligible for additional OASDI benefits. We selected a random
sample of 200 from the population of 5,908 SSI recipients to determine whether these
individuals appeared to be eligible for additional OASDI benefits as DAC. Based on our
sample results, we estimate approximately 4,047 individuals appear to be eligible for
OASDI benefits as DAC.

                                Attribute Appraisal: SSI Recipients
    Total Population                                                                    5,908
    Sample Size                                                                             200
    Number of SSI Recipients Who Appeared to be Eligible in Sample                          137
    Projection of SSI Recipients Who Appeared to be Eligible in Population:
        Lower Limit                                                                     3,707
        Point Estimate                                                                  4,047
        Upper Limit                                                                     4,363
      We made all projections at the 90-percent confidence level.

We determined computer-processed data to be sufficiently reliable for their intended
use. Further, any data limitations were minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional conclusion. The
electronic data used in our audit were primarily extracted from the SSRs and MBRs.
We tested completeness of the data by reviewing the programming logic used for the
data extract. The accuracy of the data was tested by tracing individual data fields from
the electronic extract to information contained within the SSRs and MBRs, as
appropriate. Other tests we performed include
•     comparing data elements between the SSRs and MBRs for consistency and
•     analyzing the data extract for missing data fields, unrealistic values or dates, or
      illogical relationships between data fields.

We performed our review at SSA’s Headquarters in Baltimore, Maryland. The entity
reviewed was the Office of the Deputy Commissioner for Operations. We performed
our review from August through December 2006 in accordance with generally accepted
government auditing standards.




                                                     B-2
                         Appendix C

Early Alert Memorandum
                                             SOCIAL SECURITY
MEMORANDUM

Date:      December 27, 2006                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   EARLY ALERT– Supplemental Security Income Recipients Eligible as Disabled
           Children Under the Old-Age, Survivors and Disability Insurance Program
           (A-13-07-17073)


           While conducting a review pertaining to Supplemental Security Income (SSI) recipients,
           we found a significant number of recipients may be eligible for Old-Age, Survivors and
           Disability Insurance (OASDI) benefits. As of December 2006, our analysis of
           information in the Social Security Administration’s (SSA) Supplemental Security
           Records (SSR) and Master Beneficiary Records (MBR) found there were SSI recipients
           who received OASDI benefits as children who appeared to be eligible for additional
           OASDI benefits.

           As of August 10, 2006, our examination identified 278,794 SSI recipients who had
                                                           1
           (1) attained age 18 on or after August 22, 1996; (2) dates of disability established
           before age 22; (3) received OASDI benefits as children; and (4) were receiving SSI
           payments. For these recipients, we applied additional screening requirements and
           found 5,908 individuals who appeared to be eligible for additional OASDI benefits.
           These individuals were receiving only SSI payments as of August 2006.

           Of the 5,908 SSI recipients, we selected a random sample of 200 for review. We
           independently reviewed information, recorded as of September 2006, in the respective
           SSRs and MBRs for these recipients. Of the 200, we determined 137 (68.5 percent)
           met SSA’s requirements for “disabled adult children” (DAC) under the OASDI program.
           This total excludes those SSI recipients we determined eligible for OASDI benefits, but
           would not receive OASDI payments because the recipients’ parents (1) received the
           maximum OASDI payment allowable or (2) had disability insurance that did not allow
           payments to auxiliary beneficiaries.


           1
            Public Law 104-193, effective August 22, 1996, requires that SSA redetermine the eligibility of individuals
           who were eligible for SSI based on disability in the month before the month in which they attained age 18
           using the rules for determining initial eligibility for adults.


                                                               C-1
Of the 137, we discussed our examination of 10 recipients with SSA staff. Office of
Public Service and Operations Support staff confirmed all 10 individuals were eligible
for OASDI benefits as DAC. Based on the results of our analysis, we estimate about
4,047 of the 5,908 SSI recipients we identified are eligible for OASDI benefits as DAC.
As of December 8, 2006, the Agency’s SSRs and MBRs indicated 7 (5.1 percent) of the
137 recipients we identified were receiving OASDI benefits as DAC.

We also computed OASDI underpayments for these 10 recipients in our sample of 200.
These SSI recipients were selected because, if eligible as DAC under the OASDI
program, they would receive a significant net increase in monthly payments. Based on
the 10 recipients’ eligibility for the month of September 2006, we determined the
average increase in monthly payments is about $310. The average monthly SSI
payment these recipients were receiving was $589. We determined the average
monthly OASDI payment these individuals were eligible to receive was $899.

In addition, we determined the net OASDI underpayments due to the 10 SSI recipients
                          2
totaled at least $114,000. We determined these SSI recipients were eligible for
approximately $279,000 in OASDI benefits. These SSI recipients had received
approximately $165,000 in SSI payments during this period. After applying applicable
offsets, the total net OASDI underpayments were at least $114,000. We discussed our
computations with staff from the Philadelphia Regional Center for Security and Integrity
who confirmed the 10 SSI recipients we reviewed had OASDI underpayments and the
underpayments were subject to offset.

On November 29, 2006, we met with Agency representatives to discuss our review and
plans for further work. At that time, we were informed SSA had started a similar effort
and was reviewing a sample of SSI recipients. We were provided information regarding
SSA’s selection of recipients who may be eligible for OASDI benefits. The Agency’s
selection methodology did not include all the screening requirements we used. We
provided the Agency an electronic data file identifying the 5,908 individuals who met our
screening requirements. Based on a preliminary review of our data, in December 2006,
SSA staff reported about 30 percent of the recipients we identified were also identified
by the Agency.

The group of individuals we detected warrants the Agency’s immediate attention. Since
these individuals are receiving SSI payments, they are among the most vulnerable
beneficiaries SSA serves. We will complete our review and issue our report over the
next few months. This memorandum is to alert the Agency about these individuals so
that SSA can initiate corrective action while we are completing our audit.



2
 This is the minimum amount of net underpayments due these recipients. Our calculations covered the
period of OASDI eligibility from the date of disability onset, as indicated on the SSR, to September 2006.
An earlier date of disability onset may have been established, if eligibility had been determined under the
OASDI program. An earlier onset date would have resulted in recipients being eligible to receive OASDI
benefits sooner than the dates used in our calculations.


                                                    C-2
We are available to assist the Agency as it proceeds in taking action to address this
matter. Please let us know if other data is required for Agency action. If you have any
questions concerning this matter, please contact me or have your staff contact
Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                Patrick P. O’Carroll, Jr.

cc:
Candace Skurnik




                                          C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM



Date:      March 30, 2007                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye       /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Supplemental Security Income Recipients
           Eligible as Disabled Adult Children Under the Old-Age, Survivors and Disability Insurance
           Program" (A-13-07-17073)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE AS
DISABLED ADULT CHILDREN UNDER THE OLD-AGE, SURVIVORS AND
DISABILITY INSURANCE PROGRAM" (A-13-07-17073)

Thank you for the opportunity to review and comment on the subject report. Our responses to
the specific recommendations are provided below. We are also providing some technical
comments that need to be made to enhance the accuracy of the report.

Recommendation 1

The Social Security Administration should determine whether the 5,908 Supplemental Security
Income (SSI) recipients are eligible for Old Age Survivors and Disability Insurance (OASDI)
benefits as Disabled Adult Children (DAC), and calculate the OASDI underpayments due the
recipients as appropriate.

Response

We agree. The Office of Operations has recently identified a similar workload with much of the
same criteria as that used to detect the 5,908 recipients included in this audit. We have already
started working on 1,000 of these cases to ascertain their complexity. Following our review, we
will release the entire universe of identified cases, including the 5,908 cases provided by OIG,
through this audit. Our regions will then determine whether the SSI recipients are eligible for
OASDI benefits as DACs and calculate the OASDI underpayments due the recipients, as
appropriate.

Recommendation 2

SSA should evaluate on-going efforts to identify individuals that may be eligible as DAC and
determine whether these efforts should be expedited or expanded.

Response

We agree. We will continue to pursue and evaluate efforts to identify individuals that may be
eligible as DAC and determine whether the efforts should be expedited or expanded. In
November 2006, SSA implemented systems enhancements to the Modernized Claims Systems
which allow the application screens to do the following:
    1) identify a child’s potential entitlement to benefits on another Title II record, and
    2) document a claimant’s intent to file or pursue Title XVI benefits. These enhancements
    should assist claims representatives in identifying leads for Title XVI benefits and DAC
    eligibility under Title II.




                                               D-2
In addition, SSA is formulating plans to implement systems enhancements to the Modernized
Supplemental Security Income Claims System application. These enhancements will assist
technicians in identifying situations in which potential eligibility to Title II benefits may exist.
We hope to have these enhancements in place within the next fiscal year.

[In addition to the comments above, SSA provided some technical comments which
have been addressed in this report.]




                                                  D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410)-966-9365
   Lance Chilcoat, Audit Manager, (410) 965-9743

Acknowledgments

In addition to those named above:

   Janet Stein-Pezza, Analyst-in-Charge
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-07-17073.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
